                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A05060043


          An NSF employee1questioned the presence of a former Intergovernmental Personnel Act employee2
          at NSF performing services for NSF in a volunteer capacity. The Office of Investigations determined
          that while NSF had the statutory authority to accept voluntary services such as those being provided
          by this person, it did not have an adequate administrativeprocess within which to manage volunteers
          for matters such as access to computer systems and sensitive information, conflicts of interest, and
          tort liability. 0 1 accordingly referred the matter to the Office of Audits for its evaluation of the scope
          of use of volunteers and the impact of the lack of administrative guidance and internal controls.

          Accordingly, this case is closed.




NSF OIG Form 2 ( 1 1/02)
